            DEPARTMENT OF HEALTH AND HUMAN SERVICES                              Office of Inspector General
                                                                                  Office of Audit Services

                                                                                       REGION IV
                                      OCT    I   7 2008                     61 Forsyth Street, S.W., Suite 3T41
                                                                                 Atlanta, Georgia 30303




Report Number: A-04-07-04017

Mr. Bruce W. Hughes, President
Palmetto Government Benefits Administrators
2300 Springdale Drive, BLDG One
Mail Code: AG-A03
Camden, South Carolina 29020

Dear Mr. Hughes:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of
Inspector General (OIG) final report entitled "Audit of Palmetto Government Benefits
Administrators' Medicare Part A Final Administrative Cost Proposals for Fiscal Years
2004 Through 2006." We will forward a copy ofthis report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters
reported. We request that you respond to this official within 30 days from the date ofthis
letter. Your response should present any comments or additional information that you
believe may have a bearing on the final determination.

Pursuant to the principles ofthe Freedom ofInformation Act, 5 U.S.C. § 552, as amended
by Public Law 104-231, OIG reports generally are made available to the public to the
extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or contact Mark Wimple, Audit Manager, at (919) 790-2765, extension 24, or through e-
mail at Mark.Wimple@oig.hhs.gov. Please refer to report number A-04-07-04017 in all
correspondence.

                                             Sincerely,



                                             Peter J. Barbera
                                             Regional Inspector General
                                              for Audit Services

Enclosure
Page 2 - Bruce W. Hughes

Direct Reply to HHS Action Official:

Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




  AUDIT OF PALMETTO GOVERNMENT
     BENEFITS ADMINISTRATORS'
      MEDICARE PART A FINAL
       ADMINISTRATIVE COST
    PROPOSALS FOR FISCAL YEARS
        2004 THROUGH 2006




                      Daniel R. Levinson
                       Inspector General

                        October 2008
                        A-04-07-04017
                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEl) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops ,and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). The Centers for Medicare &
Medicaid Services (CMS) administers the Medicare program through contracts with private
organizations that process and pay Medicare claims. The contracts provide for reimbursement of
allowable administrative costs incurred in processing Medicare claims.

During the audit period, which covered the period October 1,2003, through September 30, 2006,
CMS contracted with Palmetto Government Benefits Administrators (Palmetto) to serve as a
Medicare contractor. Palmetto processed Part A claims for North and South Carolina and
Regional Home Health Intermediary claims for Alabama, Arkansas, Florida, Georgia, Illinois,
Indiana, Kentucky, Louisiana, Michigan, Mississippi, New Mexico, North Carolina, Ohio,
Oklahoma, South Carolina, Tennessee, and Texas. Palmetto reported Medicare costs totaling
$153,573,106 in its Final Administrative Cost Proposals (cost proposals) for fiscal years 2004
through 2006. (See Appendix R)

OBJECTIVE

Our objective was to determine whether the administrative costs that Palmetto reported on its cost
proposals were allowable, allocable, and reasonable in accordance with part 31 ofthe Federal
Acquisition Regulation (FAR) and the Medicare contract.

SUMMARY OF FINDINGS

Palmetto reported expenditures that substantially complied with the FAR and the Medicare
contract provisions. However, Palmetto reported in its cost proposals $842 in the miscellaneous
category that it was unable to support with adequate documentation. Because Palmetto was
unable to provide supporting documentation for certain individual costs claimed in the cost
proposals, these costs did not meet the criteria for Federal reimbursement.

RECOMMENDATIONS

We recommend that Palmetto:

   •   refund to the Federal Government $842 of unallowable costs and

   •   strengthen its policies and procedures for maintaining documentation to support that costs
       included on its cost proposals were incurred, allocable to the contract, and compliant with
       applicable cost principles.
PALMETTO COMMENTS

In its written comments to the draft report, Palmetto said that it had been notified by the Office of
Inspector General that the unallowable costs had been reduced to $842 and it agreed with this
unallowable amount. In addition, Palmetto agreed with our recommendation to strengthen its
policies and procedures.

OFFICE OF INSPECTOR GENERAL RESPONSE

In response to the draft report, Palmetto provided additional documentation supporting that the
costs claimed on the cost proposals adequately reconciled to its general ledger. Accordingly, we
have removed the recommendation included in our draft report regarding unreconciled costs.




                                                  11
                        TABLE OF CONTENTS

                                                                PAGE

INTRODUCTION                                                     1

    BACKGROUND                                                   1

    OBJECTIVE, SCOPE, AND METHODOLOGy                            1
         Objective                                               1
         Scope                                                   1
         Methodology                                             2

FINDINGS AND RECOMMENDATIONS                                     3

    UNALLOWABLE COSTS                                            3

    RECOMMENDATIONS                                              3

    PALMETTO COMMENTS                                            3

    OFFICE OF INSPECTOR GENERAL RESPONSE                         4

APPENDIXES

    A-   SAMPLING METHODOLOGY

    B-   FINAL ADMINISTRATIVE COST PROPOSALS WITH OFFICE OF
         INSPECTOR GENERAL RECOMMENDED DISALLOWANCES AND
         ACCEPTANCES

    C-   OFFICE OF INSPECTOR GENERAL RECOMMENDED COST
         DISALLOWANCES

    D-   COMPARISON OF ADMINISTRATIVE COSTS CLAIMED TO BUDGET
         AUTHORIZATION

    E-   PALMETTO COMMENTS




                                111
                                      INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). The Centers for Medicare &
Medicaid Services (CMS) administers the Medicare program through contracts with private
organizations that process and pay Medicare claims.

The contracts with CMS provide for the reimbursement of allowable administrative costs
incurred in processing Medicare claims. After the close of each fiscal year (FY), contractors
submit a Final Administrative Cost Proposal (cost proposal) reporting Medicare costs. Once
CMS accepts a cost proposal, the contractor and CMS negotiate a final settlement of allowable
administrative costs.

During our audit period (FYs 2004 through 2006) CMS contracted with Palmetto Government
Benefits Administrators (Palmetto) to serve as a Medicare contractor. Palmetto processed Part A
claims for North and South Carolina and Regional Home Health Intermediary claims for
Alabama, Arkansas, Florida, Georgia, Illinois, Indiana, Kentucky, Louisiana, Michigan,
Mississippi, New Mexico, North Carolina, Ohio, Oklahoma, South Carolina, Tennessee, and
Texas.

The contract between Palmetto and CMS set forth principles of reimbursement for administrative
costs. The contract cited the Federal Acquisition Regulation (FAR), 48 CFR chapter 1, as
regulatory principles to be followed for application to the Medicare contract and provided
additional guidelines for specific cost areas.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the administrative costs that Palmetto reported on its cost
proposals were allowable, allocable, and reasonable in accordance with part 31 of the FAR and
the Medicare contract.

Scope

Our audit covered the period October 1, 2003, through September 30, 2006 (FYs 2004 through
2006). For this period, Palmetto reported administrative costs to CMS totaling $153,573,106.
This total included pension costs of$5,497,133 that we excluded from this review because
pension costs will be the subject of a separate audit.




                                                1
In planning and performing our audit, we reviewed Palmetto's internal controls for allocating
costs to cost objectives in accordance with the FAR and the Medicare contract. We conducted
this analysis to accomplish our objective and not to provide assurance on the internal control
structure.

We conducted fieldwork at Palmetto's office in Columbia, South Carolina, from April 2007
through December 2007.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Medicare laws, regulations, and guidelines, including the FAR
       section 31.201-2(d), the Medicare Financial Management Manual, chapter 2, section
       190.3 and Palmetto's contract with CMS;

   •   reconciled the cost proposals from FYs 2004 through 2006 to Palmetto's accounting
       records;

   •   performed analytical tests of Palmetto's trial balances;

   •   selected and reviewed a judgmental sample of invoices, expense vouchers and reports,
       and journal entries;

   •   interviewed Palmetto officials about their cost accumulation processes for cost proposals
       and gained an understanding of their cost allocation systems;

   •   reviewed payroll journals corporate bonus plans, and personnel records;

   •   selected a stratified random sample of 105 individual employee pay periods and verified
       that the amount paid was in accordance with the employee's pay rate, the salary was
       charged to the correct cost center, and the number of hours paid agreed with the time
       sheets (Sampling Methodology Appendix A); and

   •   tested costs for allowability, allocability, and reasonableness.

We conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.




                                                  2
                           FINDINGS AND RECOMMENDATIONS

Palmetto reported expenditures that substantially complied with the FAR and the Medicare
contract provisions. However, Palmetto reported in its cost proposals $842 in the miscellaneous
category that it was unable to support with adequate documentation. Because Palmetto was
unable to provide supporting documentation for certain individual costs claimed in the cost
proposals, these costs did not meet the criteria for Federal reimbursement.

UNALLOWABLE COSTS

Pursuant to FAR section 31.20l-2(d), Palmetto is responsible for "... maintaining records,
including supporting documentation, adequate to demonstrate that costs claimed have been
incurred, are allocable to the contract, and comply with applicable cost principles ...."
Likewise, chapter 2 section 190.3 ofthe Medicare Financial Management Manual states that the
contractor must maintain records "... in such detail as will properly reflect all net costs, direct
and indirect ... for which reimbursement is claimed under the provisions of the agreement."

Palmetto was unable to provide adequate supporting documentation for expenditures totaling
$842 that it claimed in the miscellaneous category in its FY 2005 cost proposal.

Palmetto did not provide invoices, contracts, journal entries, expense vouchers, or other such
documentation to support these expenses. Because Palmetto was unable to provide adequate
supporting documentation for these costs totaling $842, the costs were unallowable for Federal
reimbursement.

Throughout our audit, Palmetto experienced difficulty and significant delays in obtaining
evidence to support the expenses in its cost proposals. Palmetto could have minimized both its
efforts and our audit delays by maintaining proper documentation to adequately support the costs
claimed on the cost proposals.

RECOMMENDATIONS

We recommend that Palmetto:

    •   refund to the Federal Government $842 of unallowable costs and

    •   strengthen its policies and procedures for maintaining documentation to support that costs
        included on its cost proposals were incurred, allocable to the contract, and compliant with
        applicable cost principles.

PALMETTO COMMENTS

In its written comments to the draft report, Palmetto said that it had been notified by the Office of
Inspector General that the unallowable costs had been reduced to $842 and it agreed with this
unallowable amount. In addition, Palmetto agreed with our recommendation to strengthen its
policies and procedures.



                                                  3
OFFICE OF INSPECTOR GENERAL RESPONSE

In response to the draft report, Palmetto provided additional documentation supporting that the
costs claimed on the cost proposals adequately reconciled to its general ledger. Accordingly, we
have removed the recommendation included in our draft report regarding unreconciled costs.




                                                4
APPENDIXES
                                                                                                 APPENDIX A

                                       SAMPLING METHODOLOGY

OBJECTIVE

Our objective was to detennine whether the salary costs that Palmetto reported on its cost
proposals were allowable, allocable, and reasonable in accordance with part 31 of the Federal
Acquisition Regulation and the Medicare contract.

POPULATION

The population consisted of38,335 employee pay periods related to $71,735,489 Medicare Part
A salaries and wages that were charged to Medicare from October 1,2003, through September
30,2006.

SAMPLE UNIT

The sample unit was an "employee pay period.,,1

SAMPLE DESIGN

We used a stratified random sample of employee pay periods for fiscal years (FYs) 2004, 2005,
and 2006. Each FY represented a separate stratum.

SAMPLE SIZE

We selected a sample of 105 employee pay periods that included 35 each from FYs 2004, 2005,
and 2006.




IAn "employee pay period" consists of one employee's salaries, wages, and related fringe benefits for one pay
period.
                                                                                              APPENDIX B


                                    FINAL ADMINISTRATIVE COST PROPOSALS
           WITH OFFICE OF INSPECTOR GENERAL RECOMMENDED COST DISALLOWANCES AND ACCEPTANCES
                                     For Fiscal Years (FY) 2004, 2005, and 2006

            Cost Category            FY 2004            FY 2005            FY2006              Total

Salaries & Wages                 $   27,763,271     $   27,850,433     $   22,376,317     $    77,990,021

Fringe Benefits                       7,848,403          8,798,115          7,674,460          24,320,978

Facilities or Occupancy               2,840,106          3,455,440          2,747,948           9,043,494

EDP Equipment                         2,849,658          3,985,966            971,913           7,807,537

Subcontracts                          5,079,552          5,415,119          3,201,888          13,696,559

Outside Professional Services            17,117             28,308             21,388              66,813

Telephone & Telegraph                   754,099            600,896            372,751           1,727,746

Postage & Express                     2,898,280          2,959,034          2,890,842           8,748,156

Furniture & Equipment                   415,626            525,465            250,402           1,191,493

Materials & Supplies                    867,047            924,878            823,673           2,615,598

Travel                                 1,325,645          1,159,072           803,847           3,288,564

Return on Investment                     89,636             75,335             51,826            216,797

Miscellaneous                           362,051           1,264,091         7,485,638           9,111,780

Other                                          0                  0                  0                  0

Credits                               (2,563,262)        (2,710,957)        (1,097,184)        (6,371,403)

Forward Funding                                0                  0           118,973             118,973

  Total Costs Claimed on FACP    $   50,547,229     $   54,331,195     $   48,694,682     $   153,573,106
OIG Recommended Disallowance*                  0              (842)                  0               (842)
OIG Recommended for Acceptance   $   50,547,229     $   54,330,353     $   48,694,682     $   153,572,264



* See Appendix C
                                                             APPENDIXC


       OFFICE OF INSPECTOR GENERAL RECOMMENDED COST DISALLOWANCES
                            For Fiscal Year (FY) 2005

                                                          Total Part A
         Finding Categories                FY 2005       Disallowances

Unallowable Costs                           $842             $842
Miscellaneous

Total OIG Recommended Disallowances         $842             $842
                                                                                         APPENDIXD
                                                                                          Page 1 of 3


                                         Palmetto GBA
                     Final Administrative Cost Proposal Medicare Part A
       Fiscal Year 2004 Comparison of Administrative Costs Claimed to Budget Authorization


                                                                                         Variance
                                           Budget              Administrative            Favorable
            Operation                   Authorization          Costs Claimed           (Unfavorable)
Program Management
Bills/Claims Payment                    $   13,647,600     $        13,799,716     $         (152,116)
Appeals                                      2,070,000               1,937,497                132,503
Beneficiary Inquiries                        1,216,400               1,176,653                 39,747
PM Provider Communication                      295,000                 301,384                 (6,384)
Reimbursement                                4,156,800               4,014,042                142,758
Productivity Investments                       247,200                 167,579                 79,621
Provider Enrollment                            955,100                 891,170                 63,930
Provider Telephone Inquiries                 3,392,500               3,178,137                214,363
Credits                                       (854,600)             (1,018,463)               163,863
    Subtotal Program Management             25,126,000              24,447,715                678,285

Medicare Integrity Program
Medical Review                               7,200,800               7,007,066                193,734
Medicare Secondary Payer Pre-Payment           606,200                 582,706                 23,494
Benefit Integrity                              100,000                  85,893                 14,107
Local Provider Education & Training          1,838,000               1,879,760                (41,760)
Provider Communications                      1,118,600               1,138,114                (19,514)
Audit                                       12,247,900              12,253,956                 (6,056)
Medicare Secondary Payer Post-Payment        3,161,200               3,152,019                  9,181
  Subtotal Medicare Integrity Program       26,272,700              26,099,514                173,186


  Totals                                $   51,398,700     $        50,547,229     $          851,471


Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No.5)
and Notification of Budget Approval (Supplement No. 13).
                                                                                           APPENDIX D
                                                                                            Page 2 of 3


                                         Palmetto GBA
                     Final Administrative Cost Proposal Medicare Part A
            Fiscal Year 2005 Comparison of Administrative Costs Claimed to Budget Authorization


                                                                                            Variance
                                               Budget             Administrative           Favorable
            Operation                       Authorization         Costs Claimed          (U nfavorable)
Program Management
Bills/Claims Payment                    $       15,520,500    $        15,567,911    $          (47,411)
Appeals                                          2,007,500              2,056,111               (48,611 )
Beneficiary Inquiries                            1,159,500              1,173,982               (14,482)
PM Provider Communication                          237,900                219,830                18,070
Reimbursement                                    3,770,100              3,557,930               212,170
Productivity Investments                             5,000                                        5,000
Provider Enrollment                              1,162,300              1,085,542                76,758
Provider Telephone Inquiries                     3,126,000              3,032,614                93,386
Credits                                         (1,012,600)            (1,061,795)               49,195
    Subtotal Program Management                 25,976,200             25,632,125               344,075

Medicare Integrity Program
Medical Review                                   8,122,600              8,487,021              (364,42,1 )
Medicare Secondary Payer Pre-Payment               679,000                647,292                 31,708
Benefit Integrity                                   75,000                 65,961                  9,039
Local Provider Education & Training              1,702,000              1,763,531                (61,531 )
Provider Communications                          1,118,600              1,366,475              (247,875)
Audit                                           12,297,900             12,074,275               223,625
Medicare Secondary Payer Post-Payment            3,739,600              3,613,319               126,281
  Subtotal Medicare Integrity Program           27,734,700             28,017,874              (283,174)

MMA Regulatory Reform                              394,281                324,985                69,296

MMA Fee for Service                                119,362                 49,924                69,438

HIGLAS                                             318,874                306,287                12,587

  Totals                                $       54,543,417    $        54,331,195    $          212,222



Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No.5)
and Notification of Budget Approval (Supplement No. 16).
                                                                                          APPENDIX 0
                                                                                           Page 3 of 3


                                          Palmetto GBA
                      Final Administrative Cost Proposal Medicare Part A
             Fiscal Year 2006 Comparison of Administrative Costs Claimed to Budget Authorization


                                                                                          Variance
                                            Budget               Administrative           Favorable
            Operation                    Authorization           Costs Claimed          (Unfavorable)
Program Management
Bills/Claims Payment                     $   13,749,700     $         13,297,595    $          452,105
Appeals                                       2,511,400                2,580,349               (68,949)
Beneficiary Inquiries                           874,600                  844,415                30,185
PM Provider Communication                       255,900                  326,552               (70,652)
Reimbursement                                 3,230,100                3,448,581              (218,481)
Provider Enrollment                           1,167,700                1,220,162               (52,462)
Provider Telephone Inquiries                  2,181,000                2,201,132               (20,132)
Credits                                        (928,700)              (1,097,183)              168,483
    Subtotal Program Management              23,041,700               22,821,603               220,097

Medicare Integrity Program
Medical Review                                9,145,500                9,227,822               (82,322)
Medicare Secondary Payer Pre-Payment            550,500                  546,907                 3,593
Benefit Integrity                                16,000                   14,685                 1,315
Local Provider Education & Training           1,197,900                1,176,224                21,676
Provider Communications                       1,218,500                1,231,177               (12,677)
Audit                                        10,697,000               10,683,584                13,416
Therapy Cap                                                               10,605               (10,605)
Medicare Secondary Payer Post-Payment         3,045,800                2,982,075                63,725
  Subtotal Medicare Integrity Program        25,871,200               25,873,079                (1,879)


  Totals                                 $   48,912,900      $        48,694,682    $          218,218



Note: All amounts were taken from Final Administrative Cost Proposal (Supplement No. 0)
and Notification of Budget Approval (Supplement No. 12).
                                                                                                     APPENDIXE
                                                                                                       Page 1 of2




                                     GBA~                                                                    Bruce W. HU9.-t:!l!S     _
                                                                                              President and Chief Operating Officer



                                                           Office of Inspector General Note: Portions of this
                                                           response are no longer applicable because we
August 8, 2008
                                                           reduced the unreconcilable and unallowable costs
Mr. Peter J. Barbera                                       based on additional documentation submitted by the
Regional Inspector General for Audit Services              auditee.
Region IV
60 Forsyth Street, S.W., Suite 3T41
Atlanta. Georgia 30303

RE: Audit Report Number A-04-07-04017

Dear Mr. Barbera:

We are responding to your draft audit report dated June 25, 2008 entitled "Audit of Palmetto
Government Benefits Administrators' Medicare Part A Final Administrative Cost Proposals for Fiscal
Years 2004 Through 2006:' Thank you for the additional time to submit our response.

The draft report contained the following recommendations. Our responses to the recommendations are
provided below.

We recommend that Palmetto:
  • Refund to the Federal Government $5,036,646 reported in its cost proposal that did not reconcile
      to its general ledger;
   • Refund to the Federal Government $253,490 of unallowable costs; and
   • Strengthen its policies and procedures for maintaining documentation to support that costs
      included on its cost proposals were incurred, allocable to the contract, and compliant with
      applicable cost principles.

Contractor Response:
   • Since the date of the draft audit report, we have received updated information from the OIG
       auditors that the unreconciled amount is reduced to $426,769 for FY 2006. This amount
       represents only the "Miscellaneous" cost classification line under-supported amount per the
       reconciliation and does not take into account offsetting over-supported lines. The net of
       adjustment considering all lines on the reconciliation is $51,254. While we recognize that there
       were difficulties reconciling amounts to the cost classification report lines on the FACP, our total
       costs claimed is fully reconciled to our general ledger. Palmetto GBA has maintained a
       consistent process of monthly reconciliation of all costs claimed to the ~eneralledger throughout
       the periods covered by this audit. It is inequitable not to net under-supported and over-supported
       amounts to arrive at any adjustment to costs. In addition, we have reviewed many OIG audit
       reports that propose both increases and decreases to allowable costs and do not understand why
       that approach is not being followed in this case. Based on the fact that our total cost claimed are
       reconciled to our general ledger, we continue to disagree that this cost should be disallowed.
   • Since the date of the draft audit report, we have received updated information from the OIG
       auditors indicating that the unallowable costs have been reduced to $842. Palmetto GBA agrees
       with this revised amount.

                                    www.palmettogba.comIPost Office Box 100134
                                          ISO 9001:2000 Columbia. South Carolina 29202·3134
                                                                                                      APPENDIXE
                                                                                                        Page 2 of2




______ Mr. Peter J. Barbera
    August8,2008
    Page 2




             •   Palmetto agrees with the recommendation to strengthen our policies and procedures for
                 maintaining documentation to support that costs included on our cost proposals were incurred,
                 allocable to the contract, and compliant with applicable cost principles. On October I, 2007, we
                 implemented a new accounting system that standardizes and automates processed that were
                 manual functions. We have also updated work instructions for the new system and will take any
                 other steps deemed necessary to implement this recommendation.


         If you have any questions, please feel free to contact me at 803-763-7130.




             cc: William R Horton, BCBSSC
                 Joe Wright, Palmetto GBA
                 Mark Wimple, OIG




                                            www_palmettogba.comIPostOffice Box 100134
                                                 ISO 9001 :2000 Columbia, South Carolina 29202·3134
